CERTIFICATE OF SERVICE
I, Robert A. Brundage, am a member of the Bar of this Court and am counsel for respondents
Toyota Motor Corporation and Aisan Industry Co., Ltd. I certify that all parties required to be
served with the accompanying waiver letter dated April 26, 2021, have been served.

On April 26, 2021, service was made by regular United States Mail on:

 

Ganiyu Ayinia Jaiyeola Petitioner pro se
749 Preserve Circle Drive SE
Apartment 6

Grand Rapids, MI 49548

Tel. (616) 635-4025

 

 

 

 

a.

Robert A. Brundage
